USCAll No. 19-13189
IN THE
SUPREME COURT OF THE UNITED STATES

Marguerite Smith - Petitioner
vs.
Secretary of Veterans Affairs, et al - Respondent(s)

CERTIFICATE OF SERVICE
I HEREBY CERIFY that a true copy of the foregoing Petitioner’s documents on
Petition for a Writ of Certiorari in the Supreme Court of the United States was served :
Todd B. Grandy, Assist U. S. Attorney Appellate Division,
for Secretary of Veterans Affairs, et al
400 N. Tampa Street, Ste 3200
Tampa, Florida 33602
Bilal Ahmed Faruqui, Attorney General’s Office,
PL- 01 The Capitol
Tallahassee, Florida 32399
Counsel for Mark H. Mahon, et al (in his personal capacity)
United States Court of Appeals 11th Circuit
Office of the Clerk
56 Forsyth Street, N. W.
Atlanta, Georgia 30303
Clerk - Middle District of Florida
U. S. District Court
300 N. Hogan Street
Jacksonville, FL 32202
Send by U. S. Mail Postal Service on August 27, 2020.

Marguerite Smith
10522 Maidstone Cove Drive
Jacksonville, FL 32218
(904) 609-5779
11

No. 19-13189-AA
IN THE
SUPREME COURT OF THE UNITED STATES

Marguerite Smith - Petitioner
vs.
Secretary of Veterans Affairs, et al - Respondents)

CERTIFICATE OF SERVICE
I HEREBY CERIFY that a true copy of the foregoing Petitioner’s documents on
Petition for a Writ of Certiorari in the Supreme Court of the United States was served :
Todd B. Grandy, Assist U. S. Attorney,
Appellate Division
for Secretary of Veterans Affairs, et al
400 N. Tampa Street, Ste 3200
Tampa, Florida 33602

Clerk - Middle District of Florida
U.S. District Court
300 N Hogan Street
Jacksonville, FL 32202

Bilal Ahmed Faruqui, Attorney General’s Office,
PL- 01 The Capitol
Tallahassee, Florida 32399
Counsel for Mark H. Mahon, et al (in his personal capacity)

United States Court of Appeals 11th Circuit
Office of the Clerk
56 Forsyth Street, N. W.
Atlanta, Georgia 30303
Send by U. S. Mail Postal Service on August 2,2020.

Marguerite Smith /
10522 Maidstone Cove Drive
Jacksonville, FL 32218
(904) 609-5779

RECEIVED
AU8 13 jgjj

!

t

Additional material
from this filing is
available in the
Clerk's Office.

